APPENDIX TAB A
Decision of State Court of Appeals

-12-

Court of Appeals
Fifth District of Texas at Dallas
JUDGMENT
On Appeal from the 134th
Judicial District Court,
Dallas County, Texas
Trial Court Cause No.
No.05-17-01331-CV
DC-17-01261.
V. Opinion delivered by
Justice Osbome;Justices
Schenck and
Texas Workforce Commission, Reichek,
Lincoln Technical Institute,
participating
Inc.,and UCAC.Inc.,
Appellees
Franklin Cox,
Appellant

In accordance with this Court’s opinion of this
date, the judgment of the trial court is
AFFIRMED.
It is ORDERED that appellees Texas Workforce
Commission, Lincoln Technical Institute, Inc.
and UCAC, Inc. recover their costs of this
appeal from appellant Franklin Cox.
Judgment entered this 10th day of May, 2019.

-13-

APPENDIX TAB B
Decision of State Trial Court

-14-

CAUSE NO. DC-17-01261
Franklin L. Cox
Plaintiff,
v.
Texas Workforce
Commission and
Lincoln Technical,
Defendants

§
§
§
§
§
§
§
§

In The 134th Judicial

District Court of
Dallas County, Texas

ORDER GRANTING SUMMARY JUDGMENT
Defendants Motion for Summary Judgment of
Lincoln Technical and Texas Workforce Commi­
ssion came to be considered. The Court, after
considering the basis of the Motion, is of the
opinion that the Motion for Summary Judgm­
ent of Defendants Lincoln Technical and Texas
Workforce Commission should be GRANTED.
It is therefore ORDERED that the Motion for
Summary Judgment of Defendants Lincoln Tec­
hnical and Texas Workforce Commission is
GRANTED in its entirety. All costs of Court
shall be borne by party incurring same. This or­
der is final and appealable and disposes of all
parties and claims.
SIGNED THIS 3 DAY OF November. 2017.
“ Dale Tillerv”
Judge Presiding
-15-

Page 197

APPENDIX TAB C
Decision of State Supreme Court
Denying Review Reprinted

-16-

The Supreme Court of Texas
No. 19-0443
FRANKLIN COX
v.
TEXAS WORKFORCE

§
§
§
§

Dallas County,

§

5th District

§

COMMISSION AND
LINCOLN TECHNICAL
AND UCAC INC.
October 4, 2019
Petitioner’s petition for review, filed herein in
the above numbered and styled case, having
been duly considered, is ordered, and hereby is ,
denied.

“ Blake A Hawthorne”
Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy Clerk
-17-

APPENDIX TAB D
Order of State Supreme Court
Denying Rehearing Reprinted

-18-

The Supreme Court of Texas
No. 19-0443
FRANKLIN COX
v.
TEXAS WORKFORCE

§
§
§
§

§

Dallas County,
5th District

§

COMMISSION AND
LINCOLN TECHNICAL
ANDUCACINC.
December 6,2019
Petitioner’s motion for rehearing of petition for
review, filed herein in the above numbered
styled case, having been duly considered, is or­
dered, and hereby is, denied.
I,BLAKE A HAWTHORNE, Clerk of the Supr­
eme Court of Texas, do hereby certify that the
above is a true and correct copy of the orders of
the Supreme Court of Texas in the case number
and styled as above, as the same appear of reco­
ord in the minutes of said Court under the date
shown.
It is further ordered that petitioner, FRANKLIN
COX, pay all costs incurred on this petition.
WITNESS my hand and seal of the Supreme
Court of Texas, at the City of Austin, this the 6th
day of December, 2019.
“ Blake A Hawthorne”
Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy Clerk
-19-

